                U.S. ELECTION ASSISTANCE
                       COMMISSION
                OFFICE OF INSPECTOR GENERAL




                         FINAL REPORT:
                  ADMINISTRATION OF PAYMENTS
                RECEIVED UNDER THE HELP AMERICA
                 VOTE ACT BY THE MASSACHUSETTS
                SECRETARY OF THE COMMONWEALTH




                 MAY 2003 THROUGH SEPTEMBER 30, 2012




Report No.
E-HP-MA-06-12
November 2013
                                 U.S. ELECTION ASSISTANCE COMMISSION
                                         OFFICE OF INSPECTOR GENERAL
                                       1335 East West Highway - Suite 4300
                                             Silver Spring, MD 20910


Memorandum

November 21, 2013

To:          Alice Miller
             Acting Executive Director

From:        Curtis W. Crider
             Inspector General

Subject:     Final Performance Audit Report – Administration of Payments Received
             Under the Help America Vote Act by the Massachusetts Secretary of the
             Commonwealth (Assignment Number E-HP-MA-06-12)

      We contracted with the independent certified public accounting firm of McBride, Lock
& Associates to audit the administration of payments received under the Help America Vote
Act (HAVA) by the Secretary of the Commonwealth of Massachusetts’ Office (Office).

        In its audit, McBride, Lock & Associates concluded that the Office generally accounted
for and expended the HAVA funds in accordance with applicable requirements for the period
from May 2003 through September 30, 2012. However the following exceptions were identified:

      •   The Office submitted financial reports that could not be supported by underlying
          accounting records.

      •   The Office did not timely credit interest earnings to the Elections Fund.

      •   The Office property records were not adequate per 41 CFR 105-71.132.

      •   The Office did not deposit into the election fund the required state match for all Section
          251 requirements payments.

      •   The Office expended HAVA funds for purposes that are not allowable under the award’s
          terms and conditions or HAVA regulations.

        In its August 29, 2013 response to the draft report (Attachment A-1), the Office provided
comments to the findings and corrective actions, as applicable, to address the recommendations.
The Office did not agree with the finding relating to the questioned costs of $ 195,873 for the
creation and distribution of Public Service Announcements and for the printing of mail-in voter
registration cards.

      In the report McBride, Lock & Associates summarized the Office’s response to the
recommendations, as well as their comments on the responses after the recommendations. Also
included in the report is the EAC response to the draft report (Appendix A-2), dated August 12,
2013, which indicated that the EAC would work with the SOS to ensure corrective action.

       We would appreciate being kept informed of the actions taken on our recommendations
as we will track the status of their implementation. Please respond in writing to the findings and
recommendation included in this report by January 21, 2014. Your response should include
information on actions taken or planned, targeted completion dates, and titles of officials
responsible for implementation.

       To fulfill our responsibilities under Government Auditing Standards, the Office of
Inspector General:

      Reviewed McBride, Lock & Associates’ approach and planning of the audit;

      Evaluated the qualifications and independence of the auditors;

      Monitored the progress of the audit at key points;

      Reviewed the audit report, prepared by McBride, Lock & Associates to ensure
       compliance with Government Auditing Standards; and

      Coordinated issuance of the audit report.

       McBride, Lock & Associates is responsible for the attached auditor’s report and
the conclusions expressed in the report. We do not express any opinion on the
conclusions presented in McBride, Lock & Associates audit report.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       If you have any questions regarding this report, please call me at (301) 734-3104.



Attachment


cc: Director of Grants and Payments
                    Performance Audit Report


Administration of Payments Received Under the Help America Vote Act by
           the Massachusetts Secretary of the Commonwealth


                             Prepared for

        The United States Election Assistance Commission (EAC)
                      Office of Inspector General



                                 By

                     McBride, Lock & Associates

                              July 2013




                                      McBRIDE, LOCK & ASSOCIATES
                                             CERTIFIED PUBLIC ACCOUNTANTS
                                                                KANSAS CITY
                       Performance Audit Report
 Administration of Payments Received Under the Help America Vote Act by
            the Massachusetts Secretary of the Commonwealth

                             TABLE OF CONTENTS


                                                                                 Page

EXECUTIVE SUMMARY                                                                  1

BACKGROUND                                                                         2

AUDIT OBJECTIVES                                                                   4

SCOPE AND METHODOLOGY                                                              5

AUDIT RESULTS                                                                      5

APPENDICES:

     Appendix A-1: Response of the Massachusetts Secretary of the Commonwealth
                   to the Draft Report
     Appendix A-2: Response of the U.S. Election Assistance Commission
                   to the Draft Report
     Appendix B: Audit Methodology
     Appendix C: Monetary Impact as of September 30, 2012
                    U.S. Election Assistance Commission
                         Performance Audit Report
 Administration of Payments Received Under the Help America Vote Act by
            the Massachusetts Secretary of the Commonwealth

EXECUTIVE SUMMARY

McBride, Lock & Associates was engaged by the United States Election Assistance Commission
(EAC) Office of the Inspector General to conduct a performance audit of the Secretary of the
Commonwealth of Massachusetts’ Office (Office) from inception on May 2, 2003 through
September 30, 2012 to determine whether the Office used payments authorized by Sections 101,
102, and 251 of the Help America Vote Act of 2002 (HAVA) in accordance with HAVA and
applicable requirements; accurately and properly accounted for property purchased with HAVA
payments and for program income; maintained state expenditures at a level not less than the level
maintained in the fiscal year ending prior to November 2000; and met HAVA requirements for
Section 251 funds for an election fund and for a matching contribution.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •   Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Government, 41 CFR 105-71, (originally Office of
       Management and Budget Circular A-102, also known as the “Common Rule”).

   •   Expend payments in accordance with cost principles set forth in Cost Principles for State
       and Local Governments, 2 CFR 225, (originally Office of Management and Budget
       Circular A-87) for establishing the allowability or unallowability of certain items of cost
       for federal participation.

   •   Follow the requirements of the Federal Cash Management and Improvement Act.

   •   Submit detailed annual financial reports on the use of Title I and Title II payments.

   •   Comply with the provisions of Audits of States, Local Governments and Non-Profit
       Organizations (Office of Management and Budget Circular A-133).

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives.

Based on the audit procedures performed, except for the matters discussed below, we concluded
that the Office generally accounted for and expended the Grant funds in accordance with the


                                                1
requirements mentioned above for the period from May 2, 2003 through September 30, 2012.
The exceptions are as follows:

   1. The Office submitted financial reports that could not be supported by underlying
      accounting records.

   2. The Office did not timely credit interest earnings to the Elections Fund.

   3. The Office property records are not adequate per 41 CFR 105-71.132.

   4. The Office did not deposit into the election fund the required state match for all Section
      251 requirements payments.

   5. The Office expended HAVA funds for purposes that are not allowable under the award’s
      terms and conditions or HAVA regulations.

We have included in this report as Appendix A, the Secretary of the Commonwealth’s written
response to the draft report. Such response has not been subjected to the audit procedures and,
accordingly, we do not provide any form of assurance on the appropriateness of the response or
the effectiveness of the corrective actions described therein.

BACKGROUND

The Help America Vote Act of 2002 (HAVA) created the U.S. Election Assistance Commission
(Commission) to assist States and insular areas (hereinafter referred to as States) with improving
the administration of federal elections and to provide funds to States to help implement these
improvements. The Commission administers payments to States authorized by HAVA under
Titles I and II, as follows:

   •   Title I, Section 101 payments are for activities such as complying with HAVA
       requirements for uniform and nondiscriminatory election technology and administration
       requirements (Title III), improving the administration of elections for federal office,
       educating voters, training election officials and pool workers, and developing a State plan
       for requirements payments.

   •   Title I, Section 102 payments are available only for the replacement of punchcard and
       lever action voting systems.

   •   Title II, Section 251 requirements payments are for complying with Title III requirements
       for voting system equipment; and addressing provisional voting, voting information,
       Statewide voter registration lists, and voters who register by mail.




                                                2
Title II also requires that states must:

    •   Have appropriated funds equal to five percent of the total amount to be spent for
        activities for which requirements payments are made.

    •   Maintain the expenditures of the State for activities funded by the requirements payment
        at a level that is not less than the expenditures maintained by the State for the fiscal year
        ending prior to November 2000.

    •   Establish an election fund for amounts appropriated by the State for carrying out
        activities for which requirements payments are made, for the Federal requirements
        payments received, for other amounts as may be appropriated under law and for interest
        earned on deposits of the fund.

The Awardee – The Secretary of the Commonwealth of Massachusetts

The HAVA funds were awarded to the Secretary of the Commonwealth of Massachusetts, who is
the Chief Election Officer and is charged with the administration of federal and state elections,
receiving nomination papers, printing ballots and tabulating election returns for federal and state
elections as well as certification of voting equipment. Federal and state elections are conducted
at the municipal level.

Help America Vote Act Commonwealth of Massachusetts State Plan

The Secretary of the Commonwealth appointed a State Steering Committee to develop the State
Plan. The Steering Committee formed three sub-committees: Voter Identification and
Provisional Voting, Voting Equipment and Accessibility, and Training and Education. The
subcommittees held public hearings in various locations to seek public comment.

The objectives of the project funded by HAVA, as set forth in the state plan, were to purchase
and implement new voting equipment to replace those municipalities using lever machines or
datavote machines; provide increased access to the elections process for people with disabilities;
modify the Central Voter Registry; implement a comprehensive voter education program,
implement a toll-free line that allows voters to check the status of their provisional ballots; and
train elections officials in Title II requirement of the Act.

The Secretary of Commonwealth established and is maintaining an Election Fund for the
exclusive purpose of carrying out activities of HAVA. Additionally, the Office has managed all
expenditures funded by HAVA and has not distributed any of the requirements payments to the
local units of government, except for reimbursements of equipment purchases.




                                                 3
AUDIT OBJECTIVES

The objectives of our audit were to determine whether the Office:

   1. Used payments authorized by Sections 101, 102, and 251 of the Grant in accordance with
      Grant and applicable requirements;

   2. Accurately and properly accounted for property purchased with Grant payments and for
      program income;

   3. Met HAVA requirements for Section 251 funds for creation of an election fund,
      providing required matching contributions, and meeting the requirements for
      maintenance of a base level of state outlays, commonly referred to as Maintenance of
      Expenditures (MOE).

In addition to accounting for Grant payments, the Grant requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving Grant funds to
comply with certain financial management requirements, specifically:

   •   Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Government, 41 CFR 105-71, (originally Office of
       Management and Budget Circular A-102, also known as the “Common Rule”).

   •   Expend payments in accordance with cost principles set forth in Cost Principles for State
       and Local Governments, 2 CFR 225, (originally Office of Management and Budget
       Circular A-87) for establishing the allowability or unallowability of certain items of cost
       for federal participation.

   •   Follow the requirements of the Federal Cash Management and Improvement Act.

   •   Submit detailed annual financial reports on the use of Title I and Title II payments.

   •   Comply with the provisions of Audits of States, Local Governments and Non-Profit
       Organizations (Office of Management and Budget Circular A-133).




                                                4
SCOPE AND METHODOLOGY

We audited the Grant funds received and disbursed by the Office from May 2, 2003 through
September 30, 2012 as shown in the following table:

                                          FUNDS RECEIVED
         TYPE OF            EAC         STATE     INTEREST              TOTAL            FUNDS
        PAYMENT           PAYMENT       MATCH      EARNED             AVAILABLE        DISBURSED

        Section 101   $     6,590,381   $       -     $     886,100   $    7,476,481   $ 3,476,354
        Section 102         1,519,497           -            11,491        1,530,988     1,530,988
        Section 251        57,005,181       333,696       9,603,034       66,941,911    21,396,726
          Total       $    65,115,059   $ 333,696     $ 10,500,625    $   75,949,380   $ 26,404,068

                           Notes to Table of Funds Received and Disbursed:

   (1) The Required State Match is $3,000,273. As noted in Finding No. 4 the Office did not
       make the required matching contributions into the Election Fund.

   (2) The Interest Earned is allocated to the respective sections based on analysis provided by
       the Office.

Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives.

Based on the audit procedures performed, except for the matters discussed below, we concluded
that the Office accounted for and expended the HAVA funds in accordance with the
requirements mentioned above for the period from May 2, 2003 through September 30, 2012.
The exceptions to applicable compliance requirements are described below.


Finding No. 1 – Financial Reporting

The Office submitted financial reports that could not be supported by underlying accounting
records.




                                                      5
Additionally, the terms and conditions of the HAVA awards require the submission of accurate
and complete Federal Forms 269 (Financial Status Report) and 425 (Federal Financial Report)
which reflect the uses of award funds and the interest and program income generated from those
funds. HAVA Title IX, Section 902. AUDITS AND REPAYMENT OF FUNDS, Part (a) –
Recordkeeping Requirement states, “Each recipient of a grant or other payment made under this
Act shall keep such records with respect to the payment as are consistent with sound accounting
principles, including records which fully disclose the amount and disposition by such recipient of
funds, the total cost of the project or undertaking for which such funds are used, and the amount
of that portion of the cost of the project or undertaking supplied by other sources, and such other
records as will facilitate an effective audit.”

The Office submitted financial reports for Section 101 and Section 251 through September 2012
and submitted its final financial reports for Section 102 as of September 30, 2010. Only the
Section 102 report was supported by the accounting records. A summary of the reconciliation of
the Section 101 and Section 251 financial reports to the accounting records as of September 30,
2012 is as follows:

                                                    Section 101          Section 251
                                                      Report               Report
           Federal Share of Expenditures            $ 3,284,488      $ 20,209,598
           Recipient Share of Expenditures                   -             3,949,621
           Total Expenditures Reported              $ 3,284,488      $ 24,159,219
           Actual Expenditures Incurred                 3,476,354         21,396,726
           Expenditures (Under)/Over                $   (191,866)    $     2,762,493

The variances are comprised of the following:

The financial reports for the Section 101 funds did not include $81,220 of expenditures and a
$6,928 refund recorded in the accounting system. Additionally, the financial report was
overstated by $3,714 as a result of discounts received not being considered and errors in
calculations. Finally, in fiscal year 2010 the Office incurred $121,288 in Section 101
expenditures. However, the amount was erroneously excluded from the cumulative amount in the
report. This resulted in an overstatement for that period of $242,575 which was partially
corrected in the 2011 financial report.

The financial reports for the Section 251 funds did not include $334,112 of expenditures
recorded in the accounting system. Additionally, $1,002 was either a duplicate transaction
recorded as Section 101 or the discounts received which were not considered in the financial
reports. Finally, in fiscal year 2010 the Office erroneously reported $3,095,603 of Federal
outlays as both Federal and recipient share.

The accounting system used by the Office does not allow a single query to be produced to
identify all of the transactions that occurred during a given reporting period. The accounting



                                                6
system is able to produce a listing of disbursements made with HAVA funds but would not
include any of the inter-departmental transactions that occurred between the Office and the
Registry of Motor Vehicles or adjusting journal entries. Through review of the budgetary records
maintained for the fund there were five transactions totaling $109,730 that were identified, but
were not disclosed as expenditures on the financial reports. The general ledger also included
three invoices totaling $298,675 that were omitted from the financial reports. This resulted in a
total of $408,405 of unreported HAVA expenditures.

It should be noted that the Office submitted revised financial reports for Section 101, 102 and
251 as of September 30, 2012.

Recommendation:

We recommend that the EAC require the Office to implement controls to ensure that grant
activity is reconciled periodically to ensure that the Federal financial reports reflect actual
activity of the election fund.
Secretary of the Commonwealth’s Response:

   The Division has implemented the necessary internal controls to ensure that accurate future
   financial reporting on cumulative reports by individual grant is supported by underlying
   accounting records. Further, the Division has established enhanced oversight to properly
   track expenditures and account for grant funds to ensure compliance with HAVA. The
   Division will regularly monitor HAVA grant activity, which will be reconciled quarterly.
   Also, the Division has submitted revised financial reports to address the concerns noted in
   the finding.

Auditor’s Response:

   The submission of the revised FSRs as of September 30, 2012 and the implementation of
   internal controls regarding financial reporting are responsive to the concern.


Finding No. 2 – Interest Earned on Federal Funds

The Office untimely credited interest earnings to the Elections Fund.

Cash management requirements as set forth in 41 CFR § 105-71.121 (f) address the effect of
interest income on grant payments, and states that “grantees and subgrantees shall disburse
program income, rebates, refunds, contract settlements, audit recoveries and interest earned on
such funds before requesting additional cash payments.”

The Office worked with the State Treasurer and State Comptroller in order to establish the
Election Fund as an interest bearing account. The Election Fund did not have interested credited
to the fund until April 2006. The Office received approximately $60 million in Section 101, 102
and 251 payments from EAC beginning in May 2003 through September 2004. Therefore, there
are approximately three years of interest earned that have not been credited to the fund.


                                                7
The Office prepared an analysis of interest earnings for the fund based on the transactions from
the initial deposit of Section 101 funds on May 2, 2003 through April 2006. This analysis
provided interest earnings totaling $2,907,298 that were not credited to the fund. It was noted
that $2,754,129 was transferred into the HAVA bank account in April and May 2006. However,
the interest transferred was not appropriated to the Election Fund in the accounting records.

Recommendation:

We recommend that the EAC require the Office to calculate the amount of interest to transfer to
the election fund for the untimely crediting of interest earnings. This calculation should consider
the period from the inception of the HAVA grant funds through the date of transfer and include
any compound interest. The amount determined should be transferred into the election fund.

Secretary of the Commonwealth’s Response:

   The Division, in conjunction with the Massachusetts State Treasurer and State Comptroller,
   established the Election Fund as an interest bearing account. The Division acknowledges that
   for a brief period of time, the interest earned on the account was not properly credited back to
   the Election Fund.

   The Division has now calculated the remaining amount of interest as $153,169 and the
   compound interest as $23,286 to be transferred into the Election Fund. These figures include
   the period from the inception of the HAVA grant funds through June 30, 2013. The Deposit
   of these funds into the Election Fund will properly allocate the interest earned on HAVA
   grant funds and remedy any untimely crediting of interest earnings.

   The Division is currently working with the Massachusetts State Treasurer and State
   Comptroller to complete this transfer and properly allocate and credit the appropriate interest
   to the Election Fund.

Auditor’s Response:

   The corrective action is responsive to the concerns.


Finding No. 3 – Inadequate Equipment Management

The Office’s property records are inadequate.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132 (d) (the “Common Rule”) section states that, (1)
“Property records must be maintained that include a description of the property, a serial number
or other identification number, the source of property, who holds the title, the acquisition date,
and cost of the property, percentage of Federal participation in the cost of the property, the
location, use and condition of the property, and any ultimate disposition data including the data



                                                8
of disposal and sale price of the property and (2) A physical inventory of the property must be
taken and the results reconciled with the property records at least once every two years.”

The Office’s purchases of equipment with HAVA funds included workstations for the
municipalities in order to synch them with the State system, Voter Assist Terminals,
reimbursements to municipalities for the replacement of punch card or lever voting systems,
memory cards for the voting equipment and other hardware used for database storage and
networking. The Office has delegated authority and maintenance of the equipment purchased to
various staff according to the type of asset. The Office was able to provide inventory listings for
all equipment that is still operable based on the sample selection of transactions. However, it
cannot be assured that all assets have been inventoried based on the decentralized inventory
maintenance.

The inventory listings that have been provided for the different types of assets vary in content
and only the inventory listing provided for the Voter Assist Terminals contained all of the
required information. The other inventory listings were incomplete as follows:

   •   The workstations inventory did not include the acquisition date, cost of the property or
       percentage of Federal participation in the cost of the property.

   •   The inventory for the voting systems replacing the punch card or lever voting systems did
       not include the acquisition date, cost of the property, percentage of Federal participation
       in the cost of the property, the use and condition of the property or any ultimate
       disposition data.

   •   The memory cards inventory did not include the original acquisition date, cost of the
       property, percentage of Federal participation in the cost of the property or the use and
       condition of the property.

   •   The inventory of the hardware maintained at an off-site data center does not include the
       acquisition date, cost of the property, percentage of Federal participation or any ultimate
       disposition data.

The Office does not formally document the performance of a physical inventory. The Office
indicated that periodically the municipalities are required to submit inventory lists so that they
can be compared to their inventory records. The Common Rule requires a physical inventory to
be conducted once every two years and the results reconciled to the inventory records. Without
adequate documentation of the physical inventory it cannot be assured that all equipment
purchased with Federal funds are adequately accounted for and safeguarded.

The audit physically observed approximately 25% of the AutoMARK Voter Assist Terminals
located at four municipalities and those maintained by the Commonwealth of Massachusetts. The
total number of machines was accounted for at each location and agreed to the inventory listing.
However, it was identified that one serial number inspected was assigned to a different
municipality on the inventory list. Additionally, the audit inspected the workstations, monitors



                                                9
and printers that were purchased for the municipalities to connect to the State’s network at four
of the municipalities. The inspection substantiated the inventory listing as provided.

Recommendation:

We recommend that the EAC address and resolve the following recommendations that the
Secretary of the Commonwealth of Massachusetts’ Office:

   (a) Implement procedures to ensure that an inventory listing is created and maintained for
       equipment purchased with HAVA funds that complies with the Common Rule.

   (b) An analysis should also be performed to ensure that all purchases have been ultimately
       recorded through those inventory records.

   (c) Conduct a physical inventory at least once every two years and formally document the
       performance and any reconciliation efforts.

Secretary of the Commonwealth’s Response:

   The Division has undertaken comprehensive measures to ensure that all inventory of
   equipment, including workstations, voting systems, memory cards, and hardware maintained
   off-site purchased with HAVA funds is catalogued, updated, and maintained pursuant to the
   Uniform Administrative Requirements for Grants and Cooperative Agreements with State
   and Local Governments (OMB Circular A-102), 41 CFR § 105-71.132(d) (the Common
   Rule). Specifically, inventory listings have been amended to ensure inclusion of all of the
   following information required by the Common Rule: description of property; serial number
   or other identifying number; source of property; titleholder of property; date of acquisition;
   property costs; percentage of Federal participation in the cost of the property; location of the
   property; use and condition of property; and disposition data and sale price of property.

   The Division currently conducts ongoing inventory evaluations that exceed the requirements
   under HAVA, and will conduct a comprehensive physical inventory and reconcile results
   with the property records at least once every two years. In addition, all municipalities within
   the Commonwealth have been informed of their obligations under HAVA regarding
   equipment inventory management and recordkeeping for equipment that has been paid for in
   any part using HAVA funds.

Auditor’s Response:

   The corrective action plan is responsive to the concerns.


Finding No. 4 – HAVA Section 251 State Match

The Office did not deposit into the election fund the required state match for all Section 251
requirements payments.



                                               10
As a condition to receiving Section 251 requirements payments the State has to certify that it is
in compliance with section 253(b) of the Act. Section 253(b)(5) states that “The State has
appropriated funds for carrying out the activities for which the requirements payment is made in
an amount equal to 5 percent of the total amount to be spent for such activities…”

Additionally HAVA Section 254(b)(1) requires that the following monies be deposited into its
election fund:

   (a) Amounts appropriated or otherwise made available by the State for carrying out the
       activities for which the requirements payment is made to the State under this part.

   (b) The requirements payment made to the State under this part.

   (c) Such other amounts as may be appropriated under law.

   (d) Interest earned on deposits of the fund.

The Office received $57,005,182 in Section 251 funds as of September 30, 2012, which resulted
in a matching requirement of $3,000,273. The initial matching requirement of $2,748,538 for the
2003 and 2004 requirements payment was never deposited into the fund. The Office has
deposited State matching funds of $251,735 in order to satisfy the matching requirement for only
the 2008 and 2009 payments. Additionally, $81,961 was deposited into the fund as State match
to meet the requirement for the 2010 funds. However, the State elected not to certify for the 2010
funds and still maintained the State match in the election fund. This resulted in questioned costs
of $2,666,577 for the matching requirement not met as of September 30, 2012. Further, this
resulted in lost interest earnings on the matching contributions not made from the date of the
receipt of Section 251 funds through the date of transfer into the election fund.

The Office performed an analysis during fieldwork which identified $1,466,662 of State funded
expenditures that were HAVA eligible. Additionally, the Office identified $344,426 that was not
reimbursed to the municipalities for replacement of punch card or lever voting machines. This
would provide support for the resolution for $1,811,088 of the $2,666,577 questioned costs. The
audit did not evaluate the propriety of any additional matching expenditures identified by the
Office since they are historical costs that were not initially considered as a matching
contribution.

Recommendation:

We recommend that the EAC address and resolve the following recommendations that the
Massachusetts Secretary of the Commonwealth’s Office:

   (a) Deposit adequate matching funds into the election fund to satisfy the $2,666,577 in
       questioned costs. This amount may consider the analysis provided by the Office as a
       reduction of $1,811,088 of the required $2,666,577.




                                                  11
   (b) Calculate the amount of interest to transfer to the election fund for the untimely deposit
       of matching funds. This calculation should consider the period from the date the
       requirements payments were received through the date the matching requirement was met
       and include any compound interest through the date of the transfer. The amount
       determined should be transferred into the election fund.

Secretary of the Commonwealth’s Response:

   The Division acknowledges that $57,005,182 in Section 251 funds was received as of
   September 30, 2012 and resulted in a state matching requirement of $3,000,273 pursuant to
   HAVA, 42 U.S.C. § 15401/4 (establishing the 5% matching requirement). The Division has
   reviewed its HAVA obligations and accounted for all but $185,102 of the questioned costs of
   $2,666,577.

   During the audit process, the Division provided MLA with documentation of $1,811,088
   in matching state expenditures made with state monies, which would have qualified to be
   paid for using HAVA funds, similar to the accepted state match practice used in many other
   states. The finding states that during fieldwork, the Division identified $344,426 of the
   $1,811,088 that “was not reimbursed to the municipalities for replacement of punch card or
   lever voting machines.” The Division would like to clarify that 100% of the monies received
   under Section 102, which were specifically for replacement of punch card and lever
   machines, were provided to municipalities for reimbursement in addition to a percentage of
   Section 101 funds. While HAVA authorized an appropriation of $4,000 for each precinct that
   used punch card or lever voting machines during the 2000 Presidential Election for
   replacement of such equipment, the actual appropriation was $3,192 per precinct. The
   amounts available to Massachusetts under Section 102 ($1,519,497) did not cover full
   reimbursement to the cities and towns. Accordingly, after consultation with MLA, the
   Division utilized the additional amounts paid by the municipalities as state matching funds.
   The Division will make documentation available for the EAC supporting this position.

   Further, on July 12, 2013, $716,511 was deposited into the Election Fund. Of this total
   amount, $432,020 was allocated to the interest on the state match, which satisfies the state
   matching interest requirement. The remaining $284,491 was allocated to the state match.

   The Division has incurred additional matching expenses of $385,896 for programming and
   related costs for the AutoMARK Voter Assist Terminals, accessible voting equipment
   required by HAVA, associated with the Special U.S. Senate Primary held on April 30, 2013
   and General Election held on June 25, 2013. This reduces the remaining obligation of
   $570,998 to $185,102. The Division has also incurred additional expenses associated with
   the statewide database of registered voters required by HAVA, which qualify as state
   matching expenses. Of those costs, $185,102 has been paid for with state funds, which
   fulfills the state match requirements. The Division can provide this documentation to both the
   OIG and EAC, if necessary.

   Accordingly, the Division has fully expended State matching funds as required by HAVA.
   The Division has established procedures to maintain proper compliance with the 5% state



                                              12
   matching requirement under HAVA for any future requests for requirements payments that
   may be available.

Auditor’s Response:

   The corrective action, pending approval from EAC, is responsive to the concerns. It should
   be noted that the use of prior year State funded expenditures to meet the required match may
   affect the level of expenditures maintained by the State to meet the MOE requirement.


Finding No. 5 – Improper Use of HAVA Award Funds

The Office expended HAVA funds for purposes that are not allowable under the award’s terms
and conditions or HAVA regulations.

HAVA authorizes payments to states under Titles I and II as follows:
  • Title I, Section 101 payments are for activities such as complying with Title III of HAVA
    for uniform and nondiscriminatory election technology and administration requirements,
    improving the administration of elections for Federal office, educating voters, training
    election officials and poll workers, and developing a state plan for requirements
    payments.

   •   Title I, Section 102 payments are available only for the replacement of punch card and
       lever action voting systems.

   •   Title II, Section 251 requirements payments are for complying with Title III requirements
       for voting system equipment; and for addressing provisional voting, voting information,
       statewide voter registration lists, and voters who register by mail.
In December 2009 the Office paid for the creation of two broadcast television Public Service
Announcement’s (PSA) to promote voting in the Special Federal Election cycle for
Massachusetts’ United States Senator. The subject of these PSAs was to inform the public that it
was time for a Special Federal Election and that absentee ballots were available. The subject
matter indicates “get out the vote” activities instead of educating the voters as allowed by
Section 101 of HAVA.

The Office expended $18,965 for the creation of the PSAs and also expended $98,272 for the
distribution of the PSAs to the local television networks. The total of $117,237 was spent using
Section 251 funds without a certification filed with the EAC as provided for in section 251(b)(2)
of HAVA. The Office subsequently filed the EAC certification on July 8, 2013 which was
subsequent to the fieldwork. The audit noted approximately $427,407 was provided to the
marketing firm that distributed the advertising using Section 251 funds during the period under
review.

In its Funding Advisory Opinion FAO-08-005, the EAC states, “Neither Section 101 nor 251
funds can be used for “get out the vote” activities. In those cases where it is not clear whether a
registration activity is educational or a get out the vote effort (i.e. encouraging citizens to vote on


                                                  13
Election Day), the State should contact EAC for a determination on the basis of the specific
circumstances.”

The Funding Advisory Opinion further notes that, “Section 251 funds may be used for
instructing individuals how to vote in the same manner as Section 101 funds if a State has
submitted to the Election Assistance Commission one of the two certification provided for in
section 251(b)(2) of HAVA.”

The Office also developed an information booklet for voters that included a mail-in voter
registration card. The booklet provided the public information on the impact of the Help America
Vote Act of 2002, how to register to vote, voting procedures and voting rights by absentee
ballots. The cost of this booklet was allocated to both HAVA funds and State funds. The cost of
printing the mail-in voter registration cards was $78,636.

In its above-referenced Funding Advisory Opinion, the EAC noted that, “Neither Section 101
nor 251 funds may be used to print, copy, or revise State voter registration forms. Providing
voter registration forms is an activity that States have been carrying out for years, is not a
requirement imposed by HAVA, is not educational (even if there are instructions on the form), is
not an improvement to the administration of elections for Federal office and must continue to be
funded by the State.”

The cost associated with the 2009 PSA ads and the mail-in voter registration cards are not
allowable charges to the HAVA award. Accordingly, costs of $195,873 charged to the award are
questioned costs.

Recommendation:

We recommend that the EAC address and resolve the following recommendations that the
Massachusetts Secretary of the Commonwealth’s Office:

   (a) Transfer to the election fund $195,873 for the questioned costs cited above.

   (b) Determine if advertising costs paid for with Section 251 funds are allowable due to the
       untimely certification as provided by Section 251(b)(2) of HAVA

Secretary of the Commonwealth’s Response:

   The Division understands that HAVA authorizes payments to the Commonwealth and other
   states as noted above.

   The finding questions the use of HAVA funds for Public Service Announcements (PSAs)
   and the printing of voter registration forms provided as part of an informational booklet sent
   to voters. Yet the EAC’s website for Frequently Asked Questions (FAQ) relative to HAVA
   funds states that voter education is allowable. In FAQ #23, the question asks whether a state
   or local government may use HAVA funds to produce and run radio and TV spots about
   registration deadlines, rights and responsibilities, absentee voting, information about



                                               14
    grievance procedures, provisional ballots and ID requirements. The answer provided is
    generally, yes. 1 The Division believes that these activities serve to educate voters and are
    therefore eligible to be paid for using HAVA funds.

    Specifically, in December 2009, the Division used Section 251 funds for the creation of two
    broadcast television PSAs to inform the public of an upcoming Special Election for U.S.
    Senate and the procedure for obtaining absentee ballots. The purpose of the PSAs was to
    inform voters of their rights to participate in this Federal election and educate voters about
    the absentee ballot process in Massachusetts. The special election was held on January 19,
    2010, in the middle of the winter, during a time when Federal elections do not normally take
    place. This was the first time a special election of this kind was held in Massachusetts.
    Accordingly, timely notification to voters of their rights to participate in this Federal special
    election was important and necessary. In addition, providing information on absentee ballot
    procedures was imperative given that Massachusetts law does not permit early voting or “no-
    excuse” absentee voting. 2 Consequently, unless otherwise qualified, all voters must vote at
    the polls on Election Day. Due to the potential for inclement winter weather, which has been
    shown to have a direct impact on the ability of many voters to go to the polls and participate,
    it was essential to educate voters prior to the special election of how to qualify and obtain an
    absentee ballot.

    The Division acknowledges that Section 251 funds were used for the PSAs in question. In
    EAC advisory opinion (09-001), the EAC states that “Certifications filed under Section
    251(b)(2) are applicable to periods prior to the submission of the certifications.” 3 On July 10,
    2013, the Division certified to the EAC that the Commonwealth met the requirements of
    Title III of HAVA as of January 1, 2008. A copy of the certification was also provided to
    MLA. Therefore, the Division believes that the PSA costs paid for with Section 251 funds
    are permitted. If, however, the EAC determines that the certification of Section 251 funds
    was not timely, the Division respectfully suggests that in the alternative, Section 101 funds
    could have been used and are available for this purpose. Accordingly, if necessary, the
    financial reports for both Section 101 and Section 251 funds could be amended to designate
    the expenditure from Section 101 funds and document a credit to the Section 251 funds.

    The Division printed and distributed an educational information booklet for voters that
    included a mail-in voter registration form paid for in part with Section 101 HAVA funds. As
    noted in the finding, the booklet provided the public information on the impact of the Help
    America Vote Act of 2002 including new voter identification requirements for first-time
    voters, how to register to vote, voting procedures and voting rights by absentee ballots.

    This expense was incurred in 2004, four years prior to the first guidance issued by the EAC
    on the issue of using HAVA funds for printing voter registration forms. Although, FAO 08-

1
  A copy of that document can be found at: http://www.eac.gov/assets/1/workflow_staging/Documents/4712.PDF.
2
  Under Amendments Article 105 of the Massachusetts Constitution and Chapter 54, section 86 of the Massachusetts
General Laws, a voter may only vote absentee if they are absent from their city or town during the voting hours, are
unable to vote in person because of a disability or because of religious beliefs.
3
  A copy of that opinion can be found at: http://www.eac.gov/assets/1/AssetManager/FAO-09-001%20EAC.pdf.



                                                        15
   005 states that Section 101 funds may not be used to print voter registration forms, it also
   states: “[E]ducating voters on voting procedures would include providing instructions on
   how to register to vote…” It further states that “Section 101 funds may be used at any time to
   instruct individuals on how to register to vote.” The voter registration forms in question
   contained additional information regarding how to register to vote and the applicable
   deadlines for registering to vote in order to be eligible to vote in the 2004 Presidential
   election. The form also contained information regarding the new identification requirements
   for first-time voters under HAVA. This additional information supplemented the standard
   instructions that appear on all voter registration forms and clearly was a voter education
   effort allowable under HAVA.

   The Division believes that the questioned costs for the PSAs and printing of mail-in voter
   registration cards are activities eligible to be paid for using HAVA funds. The Division looks
   forward to working with the EAC by providing them with documentation and justification to
   support these expenditures.

Auditor’s Response:

   We recommend that EAC provide further guidance on the allowability of the Public Service
   Announcements and the printing of voter registration forms.

We provided a draft of our report to the appropriate individuals of the Secretary of the
Commonwealth of Massachusetts’ Office. We considered any comments received prior to
finalizing this report.

The Office responded on August 29, 2013 and generally agreed with the report’s findings and
recommendations except as noted in the responses. The EAC respond on August 12, 2013 stated
that they would work with the Office to resolve the issues and ensure appropriate corrective
action. The Office’s complete response is included as Appendix A-1 and the EAC’s complete
response as Appendix A-2.

McBride, Lock & Associates performed the related audit procedures between February 25, 2013
and July 9, 2013.

(Original Signed by McBride, Lock & Associates)

McBride, Lock & Associates
July 9, 2013




                                              16
APPENDIX A-1
             The Commonwealth of Massachusetts
             William Francis Galvin, Secretary of the Commonwealth
                               Elections Division




                                             August 29, 2013

Mr. Curtis Crider
Inspector General
U.S. Election Assistance Commission
1201 New York Ave. NW - Suite 300
Washington, DC 20005

Dear Mr. Crider:

The Elections Division within the Office of the Secretary of the Commonwealth
(Division) welcomes this opportunity to respond to the Draft Audit Report (DAR)
prepared by McBride, Lock & Associates (MLA) in connection with the Division's
administration of payments received under the Help America Vote Act of 2002 (HAVA).
The Division cooperated fully with the performance audit, providing all documents
requested and making its employees available to answer questions. The Division would
like to thank MLA, in particular Mr. Ray Miller, for its professionalism during the audit
process being conducted on behalf of the Office of Inspector General (OIG), an
independent division of the U.S. Election Assistance Commission (EAC).

Since the inception of HAVA, the Division has taken extra care when contemplating the
use of HAVA funds and implementing requirements in accordance with HAVA The
Division appreciates the opportunity to provide written responses to the Notice of
Findings and Recommendations and is committed to resolving any concerns set forth in
the DAR. We appreciate the acknowledgement ofthe corrective actions we have already
taken and the further ability to provide additional explanation during the exit interview.
Please find our written responses below.

DAR 1 - Financial Reporting

The Division is required to utilize payments authorized by HAVA Sections 101 , 102, and
251 in accordance with HAVA and applicable administrative requirements; accurately
and properly account for property purchased with HAVA payments and for program




           One Ash burton Place, 17th Floor, Boston, Massachusetts 021 08
                    (617) 727-2828 • 1-800-462- VOTE (8683)
        website: www. sec. state.rna.us/ele • e-mail: elections@sec.state. rna. us
Mr. Curtis Crider
Page Two
August 29, 2013


income; and meet HAVA requirements under Section 251 in administering HAVA funds
and its matching contribution.

Appropriate corrective action has been taken to ensure that the cumulative data reported
to the EAC reflects detailed state records. The Division submitted revised financial
reports for Sections 101, 102 and 251, which the DAR acknowledges, correcting all but
one of the accounting issues documented in the DAR for the reporting period ending
September 30, 2012. 1 Only one minor accounting exception remains outstanding - a
$3,894.00 payment refund relative to the Section 251 funds . On July 24, 2013, the
Division filed an amended report with the EAC to correct the sole remaining exception, a
copy of which was provided.

The Division has implemented the necessary internal controls to ensure that accurate
future financial reporting of cumulative reports by individual grant is supported by
underlying accounting records. Further, the Division has established enhanced oversight
to properly track expenditures and account for grant funds to ensure compliance with
HAVA. The Division will regularly monitor HAVA grant activity, which will be
reconciled quarterly.

DAR 2- Interest Earned on Federal Funds

The Division, in conjunction with the Massachusetts State Treasurer and State
Comptroller, established the Election Fund as an interest bearing account. The Division
acknowledges that for a brief period of time, the interest earned on the account was not
properly credited back to the Election Fund.

The Division has since calculated the remaining amount of interest as $153,169.00 and
the compound interest as $23,228.17 to be transferred into the Election Fund. These
figures include the period from the inception of the HAVA grant funds through June 30,
2013. The deposit of these funds has been made into the Election Fund, which properly
allocates the interest earned on HAVA grant funds and remedies any untimely crediting
of interest earnings.

The Division worked with the Massachusetts State Treasurer and State Comptroller to
complete this transfer and properly allocate and credit the appropriate interest to the
Election Fund.



1
 The revised Section 102 report, submitted to the EAC on June 7, 2013, did not amend any financial data,
but instead reflected that the report was "Final," as all monies have been previously expended.
Mr. Curtis Crider
Page Three
August 29, 2013


DAR 3 -Inadequate Equipment Management

The Division has undertaken comprehensive measures to ensure that all inventory of
equipment, including workstations, voting systems, memory cards, and hardware
maintained off-site purchased with HAVA funds is catalogued, updated, and maintained
pursuant to the Uniform Administrative Requirements for Grants (OMB Circular A-102),
41 CFR § 105-71.132 (d) (the Common Rule). Specifically, inventory listings have been
amended to ensure the inclusion of all of the following information required by the
Common Rule: description of property; serial number or other identifying number;
source of property; titleholder of property; date of acquisition; property cost; percentage
of Federal participation in the cost of the property; location of the property; use and
condition of property; and disposition data and sale price of property.

The Division currently conducts ongoing inventory evaluations that exceed the
requirements under HAVA, and will conduct a comprehensive physical inventory and
reconcile results with the property records at least once every two years. In addition, all
municipalities within the Commonwealth have been informed of their obligations under
HAVA regarding equipment inventory management and recordkeeping for equipment
that has been paid for in any part using HAVA funds.

DAR 4- HAVA Section 251 State Match

This Division acknowledges that $57,005,182.00 in Section 251 funds was received as of
September 30, 2012 and resulted in a state matching requirement of $3,000,273.00
pursuant to HAVA, 42 U.S.C. § 15401/4 (establishing the 5% matching requirement).
The Division has reviewed its HAVA obligations and accounted for all but $185,102.22
ofthe questioned costs of $2,666,577.00.

During the audit process, the Division provided MLA with documentation of
$1,811,088.00 in matching state expenditures made with state monies, which would have
qualified to be paid for using HAVA funds, similar to the accepted state match practice
used in many other states. The DAR states that during fieldwork, the Division identified
$344,426.00 of the $1 ,811,088.00 that "was not reimbursed to the municipalities for
replacement of punch card or lever voting machines." The Division would like to clarify
that 100% of the monies received under Section 102, which were specifically for
replacement of punch card and lever machines, were provided to municipalities for
reimbursement in addition to a percentage of Section 101 funds. While HAVA
authorized an appropriation of $4,000.00 for each precinct that used punch card or lever
voting machines during the 2000 Presidential Election for replacement of such
equipment, the actual appropriation was $3,192.22 per precinct. The amounts available
to Massachusetts under Section 102 ($1,519,497.00) did not cover full reimbursement to
the cities and towns. Accordingly, after consultation with MLA, the Division utilized the
Mr. Curtis Crider
Page Four
August 29, 2013


additional amounts paid by the municipalities as state matching funds. The Division will
make documentation available to the EAC supporting this position.

Further, on July 12, 2013, $716,511.00 was deposited into the Election Fund. Of this
total amount, $432,020.22 was allocated to the interest on the state match, which satisfies
the state matching interest requirement. The remaining $284,490.78 was allocated to the
state match.

The Division has incurred additional matching expenses of $385,896.00 for programming
and related costs for the AutoMARK Voter Assist Terminals, accessible voting
equipment required by HAVA, associated with the Special U.S. Senate Primary held on
April 30, 2013 and General Election held on June 25, 2013. This reduces the remaining
obligation of $570,998.22 to $185,102.22. The Division has also incurred additional
expenses associated with the statewide database of registered voters required by HAVA,
which qualify as state matching expenses. Of those costs, $185,102.22 has been paid for
with state funds, which fulfills the state match requirements. The Division can provide
this documentation to both the OIG and EAC, if necessary.

Accordingly, the Division has fully expended state matching funds as required by
HAV A. Further, the Division has established procedures to maintain proper compliance
with the 5% state matching requirement under HAVA for any future requests for
requirements payments that may be available.

DAR 5- Improper Use ofHAVA Award Funds

The Division understands that HAVA authorizes payments to the Commonwealth and
other states as follows:

    1. Section 101 payments are for activities such as complying with HAVA
       requirements for uniform and nondiscriminatory election technology and
       administration requirements, improving the administration of elections for Federal
       office, educating voters, training election officials and poll workers, and
       developing a state plan for requirements payments.

   2. Section 102 payments are available only for the replacement of punch card and
      lever action voting systems.

   3. Section 251 requirements payments are for complying with HAVA requirements
      for voting system equipment; and for addressing provisional voting, voting
      information, statewide voter registration lists and voters who register by mail.
Mr. Curtis Crider
Page Five
August 29, 2013


The DAR questions the use of HAVA funds for Public Service Announcements (PSAs)
and the printing of voter registration forms provided as part of an informational booklet
sent to voters. Yet, the EAC's website for Frequently Asked Questions (FAQ) relative to
HAVA funds states that voter education is allowable. In F AQ # 23, the question asks
whether a state or local government may use HAVA funds to produce and run radio and
TV spots about registration deadlines, rights and responsibilities, absentee voting,
information about grievance procedures, provisional ballots and ID requirements. The
answer provided is generally, yes. 2 The Division believes that these activities serve to
educate the voters and are therefore eligible to be paid for using HAVA funds.

Specifically, in December 2009, the Division used Section 251 funds for the creation of
two broadcast television PSAs to inform the public of an upcoming Special Election for
U.S. Senate and the procedure for obtaining absentee ballots. The purpose of the PSAs
was to inform voters of their rights to participate in this federal election and educate
voters about the absentee ballot process in Massachusetts. The special election was held
on January 19, 2010, in the middle ofthe winter, during a time when federal elections do
not normally take place. This was the first time a special election of this kind was held in
Massachusetts. Accordingly, timely notification to voters of their rights to participate in
this federal special election was important and necessary. In addition, providing
information on absentee ballot procedures was imperative given that Massachusetts law
does not permit early voting or "no-excuse" absentee voting. 3 Consequently, unless
otherwise qualified, all voters must vote at the polls on Election Day. Due to the
potential for inclement winter weather, which has been shown to have a direct impact on
the ability of many voters to go to the polls and participate, it was essential to educate
voters prior to the special election of how to qualify and obtain an absentee ballot.

The Division acknowledges that Section 251 funds were used for the PSAs in question.
In EAC advisory opinion (09-001), the EAC states that "Certifications filed under
Section 251 (b)(2) are applicable to periods prior to the submission of the certifications. " 4
On July 10, 2013, the Division certified to the EAC that the Commonwealth met the
requirements of Title III of the HAVA as of January 1, 2008. A copy of the certification
was also provided to the MLA. Therefore, the Division believes that the PSA costs paid
for with Section 251 funds are permitted. If, however, the EAC determines that the
certification of Section 251 funds was not timely, the Division respectfully suggests that

2
  A copy of that document can be found at:
http://www .eac. gov/assets/1 /workflow staging/Documents/4712.PDF.
3
  Under Amendments Article 105 of the Massachusetts Constitution and Chapter 54, section 86 of the
Massachusetts General Laws, a voter may only vote absentee if they are absent from their city or town
during the voting hours, are unable to vote in person because of a disability or because of religious beliefs.
4
  A copy of that opinion can be found at: http://www.eac.gov/assets/I/AssetManager/FA0-09-
00 1%20EAC.pdf.
Mr. Curtis Crider
Page Six
August 29, 2013


in the alternative Section 101 funds could have been used and are available for this
purpose. Accordingly, if necessary, the fmancial reports for both Section 101 and
Section 251 funds could be amended to designate the expenditure from Section 101 funds
and document a credit to the Section 251 funds .

The Division printed and distributed an educational information booklet for voters that
included a mail-in voter registration form paid for in part with Section 101 HAVA funds.
As noted in the DAR, the booklet provided the public information on the impact of the
Help America Vote Act of 2002 including new voter identification requirements for first-
time voters, how to register to vote, voting procedures and voting rights by absentee
ballots.

This expense was incurred in 2004, four years prior to the first guidance issued by the
EAC on the issue of using HAVA funds for printing voter registration forms. Although
FAO 08-005 states that Section 101 funds may not be used to print voter registration
forms, it also states: "[E]ducating voters on voting procedures would include providing
instructions on how to register to vote ... " It further states that "Section 10 1 funds may be
used at any time to instruct individuals on how to register to vote." The voter registration
forms in question contained additional information regarding how to register to vote and
the applicable deadlines for registering to vote in order to be eligible to vote in the 2004
Presidential election.     The form also contained information regarding the new
identification requirements for first-time voters under HAV A.                 This additional
information supplemented the standard instructions that appear on all voter registration
forms and clearly was a voter education effort allowable under HAVA.

We believe that the questioned costs for these public service announcements and printing
of mail-in voter registration cards are activities eligible to be paid for using HAVA funds.
The Division looks forward to working with the EAC, by providing them with
documentation and justification to support these expenditures.

Conclusion:

The Division is proud of its early and ongoing efforts in Massachusetts to ensure
elections are administered fairly, accurately and efficiently. In addition, the Division
appreciates the opportunities afforded by HAY A to improve the election process; in
particular, increasing accessibility to voting and modernizing the statewide database of
registered voters. The Division will continue to use HAVA funds in accordance with
HAVA and as set forth in the amended Massachusetts State Plan to improve the
administration of federal elections in the Commonwealth. Finally, the Division
welcomes the guidance provided by the EAC on HA VA funding requirements and
remains committed to working with the OIG and EAC in the future.
Mr. Curtis Crider
Page Seven
August 29, 2013


Thank you for your attention to this matter. Please do not hesitate to contact me if you
have any questions or require any additional information.
APPENDIX A-2
                   EAC RESPONSE TO THE DRAFT AUDIT:
                   OIG Performance Audit Report on the Administration of
                   Payments Received Under the Help America Vote Act by the
                   Commonwealth of Massachusetts, for the Period May 2003
                   through September 30, 2012.

August 12, 2013

MEMORANDUM

To:           Curtis Crider
              Inspector General

From:        Alice P. Miller, Chief Oper~mfflsr&
             Acting Executive Direc~ 'f~

Subject:      Draft Performance Audit Report - "Administration of Payments
              Received Under the Help America Vote Act by the of
              Commonwealth of Massachusetts"

Thank you for this opportunity to review and respond to the draft audit report for
the Office of the Secretary of the Commonwealth of Massachusetts (Office).

The Election Assistance Commission (EAC) will work with the Office to ensure
appropriate corrective action.
                                                                                      Appendix B

                                AUDIT METHODOLOGY


Our audit methodology included:

   •    Assessing audit risk and significance within the context of the audit objectives.
   •    Obtaining an understanding of internal control that is significant to the administration of
        the HAVA funds and of relevant information systems controls as applicable.
   •    Identifying sources of evidence and the amount and type of evidence required.
   •    Determining whether other auditors have conducted, or are conducting, audits of the
        program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed.

    •   Interviewed appropriate Office employees about the organization and operations of the
        HAVA program.
    •   Reviewed prior single audit reports related to the State’s financial management systems
        and the HAVA program for the period under review.
    •   Reviewed policies, procedures and regulations for the Office management and
        accounting systems as they relate to the administration of the HAVA program.
    •   Analyzed the inventory lists of equipment purchased with HAVA funds
    •   Tested major purchases and the supporting documentation.
    •   Tested randomly sampled payments made with HAVA funds.
    •   Evaluated compliance with the requirements for accumulating financial information
        reported to the Commission on the financial status reports and progress reports,
        accounting for property, purchasing HAVA related goods and services.
    •   Verified the establishment and maintenance of an election fund.
    •   Verified the State expenditures met the Maintenance of Expenditures requirement.
    •   Conducted site visits of selected counties to observe physical security/safeguard of
        equipment purchased with HAVA funds and ensure compliance with federal regulation.




                                                25
Appendix C


             MONETARY IMPACT AS OF SEPTEMBER 30, 2012

                                                                Additional
                                                Questioned      Funds for
                        Description               Costs         Program
             Interest Earned on Federal Funds   $           -   $   176,455
             Section 251 Matching Requirement       2,666,577       432,020
             Unallowable Advertising Costs           117,237            -
             Unallowable Printing of Voter
             Registration Cards                       78,636            -
             Total                              $2,862,450      $   608,475
                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/inspector_general/

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
                                U.S. Election Assistance Commission
of OIG Reports
                                Office of Inspector General
                                1201 New York Ave. NW - Suite 300
                                Washington, DC 20005

                           To order by phone: Voice:    (202) 566-3100
                                                 Fax:   (202) 566-0957



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste
                                      1201 New York Ave. NW - Suite 300
and Abuse Involving the               Washington, DC 20005
U.S. Election Assistance
Commission or Help         E-mail:    eacoig@eac.gov

America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/inspector_general/
                           FAX: 202-566-0957
